<html>
<title> - PREVENTING CULTURAL GENOCIDE: COUNTERING THE PLUNDER AND SALE OF PRICELESS CULTURAL ANTIQUITIES BY ISIS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                     PREVENTING CULTURAL GENOCIDE:


                       COUNTERING THE PLUNDER AND


                      SALE OF PRICELESS CULTURAL


                          ANTIQUITIES BY ISIS

=======================================================================

                                HEARING

                               BEFORE THE

                       TASK FORCE TO INVESTIGATE

                          TERRORISM FINANCING

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-83
                           
                           
                           
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-891 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                          
                           
                           
                           
                           
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas
TOM EMMER, Minnesota

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
             Task Force to Investigate Terrorism Financing

             MICHAEL G. FITZPATRICK, Pennsylvania, Chairman

ROBERT PITTENGER, North Carolina,    STEPHEN F. LYNCH, Massachusetts, 
    Vice Chairman                        Ranking Member
PETER T. KING, New York              BRAD SHERMAN, California
STEVE STIVERS, Ohio                  GREGORY W. MEEKS, New York
DENNIS A. ROSS, Florida              AL GREEN, Texas
ANN WAGNER, Missouri                 KEITH ELLISON, Minnesota
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
DAVID SCHWEIKERT, Arizona            DANIEL T. KILDEE, Michigan
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine
FRENCH HILL, Arkansas

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 19, 2016...............................................     1
Appendix:
    April 19, 2016...............................................    41

                               WITNESSES
                        Tuesday, April 19, 2016

Al-Azm, Amr, Associate Professor, Shawnee State University.......    11
Edsel, Robert M., Founder and Chairman, Monuments Men Foundation 
  for the Preservation of Art....................................     6
Fanusie, Yaya J., Director of Analysis, Center on Sanctions and 
  Illicit Finance, Foundation for Defense of Democracies.........     7
Gerstenblith, Patty, Distinguished Research Professor, DePaul 
  University College of Law......................................     9
Shindell, Lawrence M., Executive Chairman, ARIS Title Insurance 
  Corporation....................................................    13

                                APPENDIX

Prepared statements:
    Waters, Hon. Maxine..........................................    42
    Al-Azm, Amr..................................................    47
    Edsel, Robert M..............................................    63
    Fanusie, Yaya J..............................................    71
    Gerstenblith, Patty..........................................    82
    Shindell, Lawrence M.........................................    96

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written responses to questions for the record submitted to 
      Yaya J. Fanusie............................................   112
    Written responses to questions for the record submitted to 
      Lawrence M. Shindell.......................................   116


                     PREVENTING CULTURAL GENOCIDE:



                       COUNTERING THE PLUNDER AND



                       SALE OF PRICELESS CULTURAL



                          ANTIQUITIES BY ISIS

                              ----------                              


                        Tuesday, April 19, 2016

             U.S. House of Representatives,
                          Task Force to Investigate
                               Terrorism Financing,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The task force met, pursuant to notice, at 10:10 a.m., in 
room 2128, Rayburn House Office Building, Hon. Michael G. 
Fitzpatrick [chairman of the task force] presiding.
    Members present: Representatives Fitzpatrick, Pittenger, 
Stivers, Ross, Wagner, Barr, Rothfus, Schweikert, Williams, 
Poliquin, Hill; Lynch, Himes, Foster, Kildee, and Sinema.
    Ex officio present: Representative Hensarling.
    Also present: Representative Royce.
    Chairman Fitzpatrick. The Task Force to Investigate 
Terrorism Financing will come to order.
    The title of today's task force hearing is, ``Preventing 
Cultural Genocide: Countering the Plunder and Sale of Priceless 
Cultural Antiquities by ISIS.''
    Without objection, the Chair is authorized to declare a 
recess of the task force at any time.
    Also, without objection, members of the full Financial 
Services Committee who are not members of the task force may 
participate in today's hearing for the purposes of making an 
opening statement and questioning the witnesses.
    The Chair now recognizes himself for 3 minutes for an 
opening statement.
    I want to thank everyone for joining us today for the 
eighth hearing of the House Financial Services Committee's Task 
Force to Investigate Terrorism Financing. I would again like to 
thank Chairman Hensarling and Ranking Member Waters, as well as 
my colleagues here, for their unwavering support as we continue 
to investigate the threat of terror finance.
    Since it has surfaced, ISIS has remained substantially 
different than many terror organizations in its ability to 
self-finance due to its diversified revenue streams, pulling in 
funds from ransoms to oil production. One of the most discussed 
methods has been the exploitation of art and antiquities from 
Syria and Iraq. While not as lucrative as oil or extortion, 
Iraqi officials believe that ISIS could be generating as much 
as $100 million from the sale and trafficking of antiquities 
alone.
    Recent events have attributed this illicit practice 
exclusively to IS, but make no mistake: The plunder of art and 
antiquities has regularly been utilized by transnational groups 
operating around the world. It has been estimated that the 
profit of the traffic and sale of these cultural properties may 
range anywhere from $3.4 billion and $6.3 billion annually.
    This crime has and will continue to be a global problem, 
which requires a coordinated international effort to combat.
    Furthermore, this issue hits close to home. The FBI has 
credible reports that U.S. persons have been offered cultural 
property that has appeared to have been removed from Syria.
    The United States must do its part in curbing the demand 
for these cultural and artistic pieces by taking another look 
at customer due diligence and improving coordination with our 
international partners. This is a revenue stream exploited by 
illicit actors around the world, and it cannot continue 
unabated.
    I believe that today's hearing, with the expert panel of 
witnesses, will help illustrate the scale and severity of this 
issue as well as offer measures to best combat and diminish 
this despicable practice.
    At this time, I would like to recognize this task force's 
ranking member, my colleague, Mr. Lynch from Massachusetts, for 
4 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I also want to thank Chairman Hensarling and Ranking Member 
Waters, as well as Vice Chairman Pittenger, for holding today's 
hearing.
    And I would like to welcome and thank our distinguished 
panel of experts this morning for helping our task force with 
this important work.
    Today's hearing will focus on how the United States can 
counter the plunder and sale of priceless cultural antiquities 
by the Islamic State and others. The relevant themes of today's 
hearing, while focused on antiquities, are analogous to what we 
have seen throughout our task force hearings, especially those 
concerns related to trade-based money laundering.
    To cut off the flow of financing to terrorist 
organizations, we need better information-sharing on all 
fronts, and this includes improvements in information-sharing 
between government agencies, between countries, and with the 
private sector.
    We also need to be able to track the true owners of 
property, whether that property is an ancient artifact or a 
high-rise apartment building. We need to cut off trade routes 
that terrorist organizations use to funnel illicit goods, and 
we need a network of trade transparency units for proper 
Customs enforcement.
    Thus, the same strategies we need to combat antiquities 
trafficking can be used in a broader strategy to combat ISIS.
    For example, in a previous hearing on trade-based money 
laundering, this task force discussed the routes that ISIS used 
to smuggle cash in and out of the territory it controls. We 
learned that many of these routes run through Turkey and 
Jordan.
    In his prepared remarks for today's hearing, Yaya Fanusie 
indicated that ISIS is using similar routes to smuggle 
antiquities out of its territory. In addition, he notes that 
Lebanon as well as the Balkan route, through Greece and 
Bulgaria, are being used to smuggle antiquities and other 
illicit commodities.
    Currently there is ample opportunity for terrorist groups 
to exploit these routes with low risk of being caught. We need 
to do a better job policing these routes so that ISIS can no 
longer smuggle antiquities and other contraband out of the 
territory that it controls.
    Furthermore, we must curtail the laundering of antiquities 
that make it out of the ISIS-controlled territory so these 
goods cannot be integrated in legitimate markets. As Lawrence 
Shindell and Dr. Patty Gerstenblith mention in their prepared 
remarks as well, ISIS' ability to profit from the sale of 
antiquities is only possible because of a systematic problem of 
trade-based money laundering in the art industry.
    We need to bring together greater rules of transparency to 
this industry so that antiquities trafficking is no longer 
profitable for terrorist organizations. And as Dr. Gerstenblith 
suggests, to better track art and antiquities that enter the 
United States we should require export declarations for art and 
antiquities worth more than $10,000, and also consider a tariff 
on imports of these items.
    I look forward to hearing the testimony from our witnesses 
so we can further examine this issue in greater detail.
    And I yield back the balance of my time.
    Chairman Fitzpatrick. I now recognize for an opening 
statement the vice chairman of the task force, Mr. Pittenger of 
North Carolina, for 2 minutes.
    Mr. Pittenger. Thank you, Mr. Chairman. And thank you for 
your dedication and hard work on these important issues.
    I would like to also thank Ranking Member Lynch, Chairman 
Hensarling, Ranking Member Waters, and as well as our 
professional staff, Joe Pinder, for assembling for such an 
esteemed group of witnesses we have here today.
    Over the last year we have gained important insight into 
the threats facing our Nation, how they are funded, and the 
many obstacles we face to intercepting these funds. Recently, I 
had the opportunity to travel to South America to witness 
firsthand the problems they face with regard to illicit 
financing operations and the emerging presence of Iran 
Hezbollah and other terror financers.
    While the problems are great, I was inspired by the 
dedicated officials in Argentina, Panama, Colombia, and 
Paraguay, who are tasked with a heavy burden of combating 
sophisticated criminal financial networks. We must continue 
working with these countries and sharing our own resources and 
expertise to ensure these countries do not become overrun by 
well-financed criminal and terror organizations.
    Today, we address ISIS financing through illegal 
antiquities sales. ISIS remains the world's most dominant and 
barbaric terror organization.
    According to our Government's National Security Strategy, 
it is the objective of the United States to degrade and defeat 
ISIS. While this Administration's overall strategy remains 
questionable, both parties can agree that preventing the flow 
of dollars to fund ISIS and its caliphate must remain a top 
priority of our government.
    With this hearing, Congress is signaling the importance of 
identifying and combating each element of ISIS financing, 
whether it be extortion, cross-border cash smuggling, trade-
based money laundering, or, in this case, antiquities sales.
    Thank you, Mr. Chairman, for holding this important hearing 
on such a pertinent issue, and I yield back.
    Chairman Fitzpatrick. I now recognize the gentlelady from 
Arizona, Ms. Sinema, for 1 minute.
    Ms. Sinema. Thank you, Chairman Fitzpatrick and Ranking 
Member Lynch.
    Terrorism is an undeniable threat to our country's security 
and global stability. Terrorist networks constantly develop new 
ways to finance their deadly operations and threaten America.
    The Islamic State is one of the world's most violent, 
dangerous, and well-financed terrorist groups.
    Within the past year, amid greater pressure on its other 
financial resources, IS has ratcheted up the extraction and 
sale of antiquities to fund its militant violence. In 2015, IS 
generated millions of dollars from trafficking in antiquities. 
Funds are raised from direct looting as well as through 
imposing taxes and requiring permits for criminal smugglers who 
operate in IS-controlled territory.
    The impact of these actions goes beyond the financing of 
terrorism. The destruction or sale of these antiquities is also 
part of IS's apocalyptic worldview in which anything outside of 
its perverse and disgusting vision of Islam must be destroyed.
    The loss of these historical treasures is a tragedy. To 
keep our country safe we must be one step ahead of IS, cutting 
off its funding and stopping its efforts.
    I appreciate hearing from our witnesses about addressing 
this threat and defeating ISIS.
    I yield back.
    Chairman Fitzpatrick. We now welcome our witnesses.
    Mr. Robert Edsel is our first witness today. Mr. Edsel is 
the author of several nonfiction books, including, ``Rescuing 
Da Vinci,'' ``The Monuments Men: Allied Heroes, Nazi Thieves, 
and the Greatest Treasure Hunt in History,'' as well as 
``Saving Italy: The Race to Rescue a Nation's Treasures from 
the Nazis.''
    He is co-producer of the documentary film, ``The Rape of 
Europa,'' and the founder and chairman of the Monuments Men 
Foundation for the Preservation of Art. Most famously, Academy 
Award-winner George Clooney directed and starred in a film 
based on Mr. Edsel's book, ``The Monuments Men,'' which was 
released on February 7, 2014.
    Raised in Dallas, Texas, Mr. Edsel graduated from St. 
Mark's School of Texas and Southern Methodist University. He 
has been awarded the Texas Medal of Arts Award, the President's 
Call to Service Award, and the Hope for Humanity Award, 
presented by the Dallas Holocaust Museum.
    In 2014, he was presented with the Records of Achievement 
Award from the Foundation for the National Archives, which 
recognizes an individual whose work has fostered a broader 
national awareness of the history and identity of the United 
States through the use of original records. He serves as 
trustee of the National World War II Museum in New Orleans.
    Mr. Yaya Fanusie is the director of analysis at the Center 
on Sanctions and Illicit Finance at the Foundation for Defense 
of Democracies. Yaya spent 7 years as both an economic and 
counterterrorism analyst in the CIA, where he regularly briefed 
White House-level policymakers, U.S. military personnel, and 
Federal law enforcement.
    After government service, Yaya worked in a small consulting 
firm where he led a team of analysts working on a multibillion-
dollar recovery effort involving a global corruption ring. He 
then operated his own consulting practice training firm, 
specializing in strategic analysis and business due diligence.
    Yaya received an M.A. in International Affairs from 
Columbia University's School of International and Public 
Affairs, and a B.A. in Economics from U.C. Berkeley.
    Dr. Patty Gerstenblith is a distinguished research 
professor at the DePaul University School of Law. She is also 
director of its Center for Art, Museum, and Cultural Heritage 
Law. She is also the founding president of the Lawyers' 
Committee for Cultural Heritage Preservation, a director of the 
U.S. Committee of the Blue Shield, and a senior advisor to the 
ABA's Art and Cultural Heritage Law Committee.
    In 2011, she was appointed by President Obama to serve as 
the Chair of the President's Cultural Property Advisory 
Committee at the U.S. Department of State. Previously, she was 
editor-in-chief of the International Journal of Cultural 
Property.
    Dr. Gerstenblith received her bachelor's degree from Bryn 
Mawr College, a Ph.D. in Art History and Anthropology from 
Harvard University, and a J.D. from Northwestern University.
    Dr. Amr Al-Azm is an associate professor at Shawnee State 
University in Ohio. He was educated in the U.K., reading 
Archeology of Western Asiatics at the University College 
London, and graduated with a doctoral degree in 1991.
    He was the director of scientific and conservation 
laboratories at the General Department of Antiquities and 
Museums in Syria, and taught at the University of Damascus 
until 2006. From 2006 until 2009, he was visiting assistant 
professor at Brigham Young University.
    Dr. Al-Azm is an active member of the Syrian opposition and 
serves on the executive committee of The Day After project.
    Mr. Lawrence Shindell is executive chairman of the U.S. New 
York-headquartered ARIS Title Insurance Corporation, a division 
of the NASDAQ-traded Argo Group, an international insurance 
company. ARIS Title Insurance Corporation is the world leader 
in securing legal ownership to non-real-estate property assets 
for multiple industry sectors.
    Mr. Shindell regularly advises, speaks, and writes 
internationally on the legal title risks inherent in the global 
art and collectibles market for a range of industry 
stakeholders and participants.
    Mr. Shindell holds a bachelor's degree from the University 
of Wisconsin-Madison, and a juris doctorate from Emory 
University School of Law.
    The witnesses will now be recognized for 5 minutes each to 
give an oral presentation of your written remarks. And without 
objection, each of your written statements will be made a part 
of the record.
    Once each of the witnesses have finished presenting their 
testimony, the members of the task force will have 5 minutes 
within which to ask questions.
    On your table, there are three lights: green; yellow; and 
red. Yellow means that you have 1 minute remaining, and red 
means your time is up.
    And with that, Mr. Edsel, you are recognized for 5 minutes. 
Thank you, sir.

STATEMENTS OF ROBERT M. EDSEL, FOUNDER AND CHAIRMAN, MONUMENTS 
           MEN FOUNDATION FOR THE PRESERVATION OF ART

    Mr. Edsel. I would like to extend my thanks to Chairman 
Fitzpatrick, Ranking Member Lynch, and the members and staff of 
the task force, for including me in these important 
deliberations.
    Evidence that ISIS has sanctioned the looting and sale of 
antiquities to generate revenue for terrorism is a game-
changer. It compels us to think about the ownership of art, the 
responsibility of the art trade and collectors, and the role of 
the Federal Government differently than ever before.
    We cannot say we weren't warned. As recently as 1981, 
Monuments Man Mason Hammond, the only Monuments Officer to see 
duty in Italy and Germany, and an important advisor to General 
Eisenhower's staff, urged all those willing to listen that, 
``Planners for future hostilities tend to think in terms of the 
last conflict, but any consideration of the different ways in 
which the First and Second World Wars were fought demonstrates 
the fallacy of such an approach. If this generation wishes to 
leave to its children the cultural treasures that it has 
enjoyed, such planning should be encouraged.''
    Hammond's warning went unheeded. But as events in Iraq in 
2003, and more recently in Syria, have painfully demonstrated, 
he was right.
    The Monuments Men saw firsthand that the destruction of 
cherished artistic and religious treasures is the starter gun 
that precedes genocide and the human suffering that follows. It 
proved true in Nazi Germany, in Bosnia-Herzegovina, in Al 
Qaeda-controlled areas of Afghanistan and Mali, and now in 
ISIS-administered portions of Syria and Iraq.
    Ignoring this early warning sign denies our Nation the 
chance to act; we can only react. Organizations that are 
charged with preserving our cultural heritage are instead 
relegated to bearing witness to its destruction.
    Steps we as a Nation have taken to protect our homeland 
following September 11th have not kept pace with developments 
in the art world. Nowhere near.
    Today, art is synonymous with money. The global explosion 
of wealth these past 20 years has created more buyers with 
greater resources chasing prized objects.
    Prices have skyrocketed. Consider that a painting by 
Picasso that sold for less than $200,000 in 1956 recently sold 
for $180 million, a sculpture by Giacometti for $141 million, 
and a drawing by Raphael for $50 million.
    The sums are staggering, and yet regulatory authorities 
have not created and applied the same level of control 
procedures in the art market as we have in other areas of 
commerce involving similar sums of money. This creates a 
weakness that ISIS and others--tax cheats, those in possession 
of looted paintings and objects, and smugglers--can exploit.
    The very profitability of art and antiques and sometimes 
their relatively small size facilitates movement, sometimes 
into hiding places out of view by tax authorities, Nazi-looted 
claimants, and other victims of theft. For example, just last 
week the Panama Papers leak revealed that a Nazi-looted 
painting by Modigliani worth upwards of $25 million was among 
thousands of works of art stored in special tax zones known as 
free ports.
    While this art netherworld does provide privacy for the 
honest, the lack of transparency also cloaks tax cheats, 
thieves, and those aiding ISIS' business operation of 
converting cultural treasures to cash to fund terrorism.
    The art trade is a largely self-regulated, antiquated 
business model operating in a digitized, near-invisible world. 
Until the advent of the Internet in the late 1990s, few in the 
art world paid attention to provenance--a fancy word for who 
owned something in the past--unless it enhanced the value of 
the object. Looted art traded hands, some of it openly.
    Although there has been improvement in the scrutiny of 
objects sold at public auction, there remains a high degree of 
willful ignorance by some collectors eager to add to their 
collections. Worse still is their lack of knowledge about the 
history of what they already own. Some don't want to know.
    Who can be against infusing the opaque system of the art 
world with increased transparency? Tax cheats? Those who 
possess stolen works of art? Smugglers? Terrorism networks? 
Because privacy alone cannot be an argument for doing nothing 
when the stakes for the common good are so high.
    In closing, the policy of the Western Allies and the work 
of the Monuments Men established the high bar for the 
protection of cultural treasures during times of conflict. It 
was a source of pride for General Eisenhower, who said, ``It is 
our privilege to pass on to the coming centuries treasures of 
past ages.''
    What, then, will be our legacy?
    [The prepared statement of Mr. Edsel can be found on page 
63 of the appendix.]
    Chairman Fitzpatrick. Mr. Fanusie, you are now recognized 
for 5 minutes.

 STATEMENT OF YAYA J. FANUSIE, DIRECTOR OF ANALYSIS, CENTER ON 
   SANCTIONS AND ILLICIT FINANCE, FOUNDATION FOR DEFENSE OF 
                          DEMOCRACIES

    Mr. Fanusie. Thank you. Good morning.
    Chairman Fitzpatrick, Ranking Member Lynch, and members of 
the task force, on behalf of the Foundation for Defense of 
Democracies and its Center on Sanctions and Illicit Finance, 
thank you for the opportunity to testify.
    Before delving into the issue of Islamic State antiquities 
trafficking, it is important first to clarify how the trade 
fits into ISIS' overall economic goals. One way to understand 
these goals is to look at some of the strategies guiding the 
group's actions.
    Now, one of ISIS' aims is to win over locals who may be on 
the fence regarding submitting to jihadist rule. This approach 
gives context to the antiquities trade in ISIS territory.
    Although exactly how much ISIS earns from looting ancient 
artifacts is difficult to assess, the group clearly encourages 
and facilitates the trade. This facilitation appears to be part 
of ISIS' economic strategy, not just for funding the group 
itself, but for creating ways to bring funds to its subjected 
population, whose hearts and minds the Islamic State is trying 
to win.
    ISIS has been dubbed the world's richest terrorist army, 
and the illegal antiquities trade is one income stream which 
gives the group significant strategic advantage against 
existing counter-terror finance efforts. The trade's main 
target buyers are, ironically, history enthusiasts and art 
aficionados in the United States and Europe--representatives of 
the societies which ISIS has pledged to destroy. This poses 
several challenges to policymakers, but there may be 
opportunities for us as well.
    Now, ISIS has access to roughly 5,000 archaeological sites 
and probably has earned several million dollars from 
antiquities trafficking. And some of the looting appears to be 
conducted by local populations who sell amid an economically 
devastated environment where ISIS already taxes and confiscates 
other earnings and possessions.
    The importance of this trade for ISIS lies not just in the 
funding, but in the market's strategic and operational 
benefits. The illegal trade of artifacts generally doesn't risk 
provoking outside military attacks--it is not likely that the 
excavation sites are going to be bombed; or provoking local 
rebellion.
    The pipelines that move antiquities to market invariably 
transit states bordering Syria and Iraq. Turkey and Lebanon are 
the best-documented among these. European border states also 
play an important role.
    These pipelines are well-known for other illicit 
commodities but less understood in the context of antiquities. 
The Balkan route into Europe through Greece and Bulgaria is a 
known path for drugs and migrants and probably plays a role in 
antiquities trafficking.
    So the global annual trade in illicit art and antiquities 
is hard to stop. Looted objects are hidden away for long 
periods, false documentation on their provenance is routine, 
and transactions have proven difficult to track through 
traditional Customs enforcement and financial intelligence.
    The challenges are great, necessitating new means to 
counter them. The following are some recommendations that may 
help policymakers address this trade.
    One, imposing terrorism sanctions on artifact smugglers and 
dealers. Even a handful of strategic terror financing 
designations by OFAC, the E.U., and the U.N. imposed on the 
worst offenders would likely have a chilling effect on both 
sellers and buyers, given the financial risks and fines 
associated with sanctions.
    Two, making antiquities looting an intelligence and law 
enforcement priority. At present, it is unclear who in the U.S. 
Government is even responsible for countering antiquities 
trafficking. Reform can only come about by declaring this issue 
a national security priority. The U.S. Government must 
designate a lead organization and provide adequate 
authorization and resources.
    Three, incorporating cultural property crime awareness into 
the intelligence community and U.S. Special Operation--Special 
Forces training. Threat finance is already emphasized in 
courses taught at the Joint Special Operations University, but 
such courses do not appear to highlight antiquities despite 
their role in terror finance. Antiquities trafficking should be 
included in future coursework.
    Four, expanding registries of art and antiquities. Now, 
registries of stolen art and antiquities are commonplace, but 
new technologies make it possible for art and artifacts to be 
tagged and tracked in real time, even using DNA markers. So 
over time, by tagging a large number of objects with unique 
identifiers, a better chain of custody can be created.
    These recommendations are just a few of the steps in what 
will undoubtedly be a long, complex, and multifaceted battle.
    Law enforcement and intelligence officials should pay close 
attention to the antiquities trade emanating from Syria and 
Iraq, not just because they need to know precisely how much 
money ISIS brings in. What is important is that the trade 
itself reveals something about Islamic State's operational 
infrastructure, its links with partners and middlemen, and how 
the group is exploiting the local civilian population. All of 
this is critical to understanding how the United States and its 
allies may defeat the group militarily, financially, and 
ideologically.
    Thank you.
    [The prepared statement of Mr. Fanusie can be found on page 
71 of the appendix.]
    Chairman Fitzpatrick. Dr. Gerstenblith, you are now 
recognized for 5 minutes.

    STATEMENT OF PATTY GERSTENBLITH, DISTINGUISHED RESEARCH 
          PROFESSOR, DEPAUL UNIVERSITY COLLEGE OF LAW

    Ms. Gerstenblith. Chairman Fitzpatrick, Ranking Member 
Lynch, and members of the task force, thank you for this 
opportunity to speak with you.
    As was mentioned, I serve as the Chair of the Cultural 
Property Advisory Committee in the State Department. However, I 
am speaking to you today both in my personal capacity and on 
behalf of the U.S. Committee of the Blue Shield.
    The Blue Shield is the cultural equivalent of the Red Cross 
and is used to mark protected cultural sites. Among the current 
activities of our organization is the creation of no-strike 
lists of cultural sites and repositories, and we liaise with 
the Department of Defense to assist in fulfilling our 
international obligations to protect cultural heritage during 
armed conflict.
    Syria and Northern Iraq are rich in historic remains 
stretching over many millennia. This is where the Akkadian King 
Hammurabi ruled at the beginning of the second millennium BCE, 
and where the Hebrew prophet Jonah successfully preached 
repentance to the Assyrian Ninevites 1,000 years later.
    Historic remains represent the successive cultures of the 
Greeks, the Romans, the Byzantines, and the Islamic and Ottoman 
periods; as well as many faiths, including Judaism, 
Christianity, and Islam; and minority groups such as the 
Yazidis, Zoroastrians, and Druze. Syria is home to 6 world 
heritage sites and 12 tentative world heritage sites.
    When an archaeological site is looted, the contextual 
relationship among the artifacts and other remains is 
destroyed, thereby permanently preventing us from fully 
understanding and reconstructing our past. Unfortunately, the 
looting of archaeological sites is big business, often carried 
out on an organized, industrialized scale, and in response to 
market demands. And many of these sites are unknown before they 
are looted.
    As cultural objects move from source, transit, and 
destination countries, different legal systems create obstacles 
to interdiction of objects and prosecution of crimes, and they 
allow the laundering of title to these artifacts.
    The United States is the single largest market for art in 
the world, with 43 percent of market share. Because of the 
availability of the charitable tax deduction, the ability to 
import works of art and artifacts without payment of tariffs, 
and because of artistic preference, the United States is the 
largest ultimate market for antiquities, particularly those 
from the Mediterranean and the Middle East.
    Antiquities freshly looted from the ground have no 
established value and no documented history. They can be mined 
from the ground as new commodities. Therefore, they are the 
perfect vehicle for moving funds and value around the world and 
for supporting illegal activities such as trade-based money 
laundering, purchase of drugs and weapons, organized crime, and 
terrorism.
    Because of the unknown nature of recently looted 
antiquities, databases of stolen art are for the most part 
useless for regulating the antiquities trade. And technologies 
that would tag cultural objects would, in my opinion, be 
similarly ineffective.
    Both ISIL and the Assad regime are participating in looting 
and are realizing income from the sale of antiquities. 
Diachronic studies of satellite images of archaeological sites 
reveal historic patterns of looting pre-conflict.
    For example, in this image of the site of Mari, which is 
located in eastern Syria and fell under ISIL control in the 
summer of 2014, pre-conflict you can see some looters' pits, 
but not many. And in the fall of 2014, I hope you can see the 
large numbers of looters' pits, many of which are marked with 
the red circles around them, but there are additional ones as 
well.
    We know that ISIL earns income at several points of 
intersection with the channels through which these artifacts 
move. We also know that for propaganda purposes, ISIL destroys 
on a large and public stage immovable structures, such as 
ancient temples, churches, and shrines. They also destroy 
artifacts that are documented in museum collections and that 
are too well-known to sell or too large to move.
    But away from public view, it orchestrates the looting of 
antiquities, charging for licenses, taxing the smugglers, and 
selling the artifacts or taxing their sale. You will hear more 
about this from Dr. Al-Azm.
    Yet, there are steps that the United States can take that 
impose little cost and no risk to American citizens because 
these are steps that we can take here in the United States but 
that would also reduce the economic reward to ISIL.
    First of all, returning to the House next week, I hope, 
will be H.R. 1493, which will impose import restrictions on 
cultural materials illegally removed from Syria after the 
beginning of the rebellion in March of 2011. Second, take up 
H.R. 2285, to improve Customs enforcement of existing law.
    Third, encourage law enforcement to refocus attention away 
from forfeiture and repatriation of objects and toward criminal 
prosecutions so that criminal networks can be dismantled and 
higher-level actors reached. Fourth, foster greater 
transparency and accountability in the market by, among other 
things, requiring documentation of ownership history upon sale 
or donation to charitable institutions.
    And finally, we should be looking prospectively towards 
places where ISIL is moving, such as Libya, which is also home 
to many archaeological sites. We need to develop a proactive, 
rather than reactive, way of dealing with the problem of 
antiquities looting and marketing.
    Thank you for this opportunity to address the task force. I 
look forward to answering your questions.
    [The prepared statement of Dr. Gerstenblith can be found on 
page 82 of the appendix.]
    Chairman Fitzpatrick. Thank you, Doctor.
    Dr. Al-Azm is now recognized for 5 minutes.

  STATEMENT OF AMR AL-AZM, ASSOCIATE PROFESSOR, SHAWNEE STATE 
                           UNIVERSITY

    Mr. Al-Azm. I would like to begin by thanking the Financial 
Services Committee and its task force for inviting me to 
testify on such an important subject.
    I will focus my remarks on three key points.
    One, when ISIS took over large swaths of territory back in 
2014 it essentially took over a preexisting situation of 
looting. ISIS did not start the looting; it just carried it on. 
Moreover, it actually institutionalized the process and 
intensified it to a great degree.
    In fact, what we can say is that ISIS sees cultural 
heritage as a resource to be exploited like any other. And we 
know this because ISIS has a dedicated department for the 
administration of the looting of antiquities.
    You can see here, for example, this is one of their offices 
in the city of Manbij, and it is placed under the Diwan Al-
Rikaz. Diwan Al-Rikaz means the Office of Resources, which also 
manages oil revenue, taxation, and any other source of revenue 
that ISIS cares to use.
    Through this office, licenses like this one are issued to 
looters, which are then given--which allow the looters, gives 
them permission to go out and loot archaeological sites. In 
fact, the purchase of a looting license is a source of revenue, 
as are extensions, as you see in this case here. This looter, 
having dug up the site, decided he needed an extension, so he 
purchased an extension, and then needed to use heavy machinery, 
so in the second image on the right you can see that he 
purchased an actual extension to his license to allow him to 
use heavy machinery. The heavy machinery--you can see it here--
are now being used to gouge chunks of earth out of the site.
    And if you don't think that this is producing good 
material, here are some of the finds that came out of this one 
licensed site that was being looted: not only these pieces of 
pottery, but also, as you can see, these bronze and metal 
items, all coming from a Bronze Age tomb complex.
    We also know that when ISIS licenses these sites, it also 
then requires the looter to sell the items. If he fails to sell 
them, then ISIS will take them back and they will use their 
major main auction in the city of Raqqa. We know that there is 
a major auction in Raqqa. It operates on a regular basis, 
sometimes as often as 3 times a week, when necessary.
    These two items there were recently looted from the city of 
Palmyra just before ISIS was forced out of the city, and they 
were sold about 3 weeks ago in the Raqqa auction. I believe the 
asking price was $150,000. I cannot confirm whether that was 
the price that was achieved, but that was the asking price.
    ISIS, as Patty mentioned, also destroys cultural heritage. 
It does so, however, for propaganda purposes. It loots what it 
can sell; it destroys what it cannot.
    Large monuments like these end up being destroyed because 
they allow ISIS to demonstrate its ability to act with impunity 
and the impotence of the international community to do anything 
about it. It is a powerful propaganda tool. ISIS exploits it 
and uses it to great effect.
    Also, just to point out to you that it is not just ISIS 
that loots; looting was also done by the regime. These two 
items were looted from Palmyra, but this was when it was under 
regime control, and they are currently also on sale in Syria 
and about to be exported to Turkey by the dealer who has them. 
And he purchased them from an army officer 1 year before ISIS 
took control of the site.
    What can we do about this? Efforts are being made to 
protect cultural heritage inside Syria. Seventy percent of 
Syria's cultural heritage is actually outside regime-controlled 
areas and outside the reach of its government institutions. 
Therefore, it falls on non-state actors--local activists, 
museum curators, archaeologists--to try and do something--and 
NGOs like The Day After, with its Heritage Protection 
Initiative.
    We try to do what we can. We try to monitor this damage; we 
try to monitor this destruction; we try to document any 
activity that occurs related to this.
    But at the end of the day, we are just civilians. We don't 
have the institutional support.
    We do get some help from organizations here in the United 
States like the American School of Oriental Research (ASOR); 
Penn Cultural Heritage Center has supported us; as does the 
Antiquities Coalition, and others. But this support is actually 
limited, and this hardly addresses the scale of the catastrophe 
that we are facing.
    I would also touch upon the importance of why it is 
necessary to save this cultural heritage. I am out of time, so 
I would be happy to answer that during questions.
    Thank you.
    [The prepared statement of Dr. Al-Azm can be found on page 
47 of the appendix.]
    Chairman Fitzpatrick. Thank you, Dr. Al-Azm.
    Mr. Shindell, you are recognized for 5 minutes.

  STATEMENT OF LAWRENCE M. SHINDELL, EXECUTIVE CHAIRMAN, ARIS 
                  TITLE INSURANCE CORPORATION

    Mr. Shindell. Chairman Fitzpatrick, Ranking Member Lynch, 
and members of the committee and the task force, thank you for 
inviting me to testify.
    I also would like to thank the task force itself for its 
work to highlight the complex nature of terrorism financing, 
including the weekly news clips e-mailed to interested 
stakeholders on the subject.
    I submitted my more detailed written testimony for the 
record, so I will focus on two points.
    One, the problem with terrorism financing through conflict-
zone looting of cultural objects relates to the broader problem 
of money laundering of the global art industry, as 
Representative Lynch accurately pointed out.
    The need is for improved AML compliance in connection with 
art and cultural objects as an asset class, which can only 
happen at the intersection of the art and financial industries. 
If we remove the ability of terrorists to launder stolen and 
looted art and cultural objects, then we remove the economic 
motive to loot these objects, cut off a key source of terrorism 
financing, and make great strides toward protecting important 
parts of the world's cultural legacy.
    Two, effective solutions are now within reach. ARIS has 
been reviewing, with the trade and financial regulators in the 
U.S., U.K., Switzerland, Luxembourg, and Belgium, information-
based technology solutions to bring transparency to global art 
and antiquities transactions.
    At home, ARIS believes that FinCEN has the ability to use 
its authority to bring greater transparency and information-
sharing to the art and antiquities market through partnering 
approaches with the U.S. Treasury and FinCEN, which I will 
discuss in a moment, to detect and share information on 
anomalistic patterns of behavior in art industry financial 
sector transactions. These patterns, if identified, can signal 
terrorism financing through looted art and cultural objects as 
well as trade-based money laundering in the art industry 
generally.
    ARIS' lens on these issues stems from its role as the 
leading title insurer in the industry, servicing the broad 
range of stakeholders, from the financial markets lending 
against the asset class, capital markets investing in the asset 
class, and the nonprofit museum community as well as the trade.
    The problem is, of course, the unregulated nature of the 
industry, as you have heard, combined with a lack of 
recordkeeping for transactions in source and market nations, 
all of which obscures legal status and beneficial ownership. In 
the AML context, this prevents market participants from 
identifying patterns in illegal schemes, when identifying 
patterns is the core of the AML enforcement and compliance.
    Compounding the problem is the prevalence of free ports, as 
you heard alluded to, which are tax-free zones designed to 
serve as a way station in valid transactions so that the tax 
ultimately assigned is levied at the final destination of the 
object. But in fact, these become locations to store works 
indefinitely that adds to the obfuscation in the art industry. 
The Financial Action Task Force on Money Laundering identified 
this problem as early as 2010.
    And to be sure, good-faith, well-intended, responsible 
operators of free ports in the market as a whole, as well as 
regulators, seek better systemic means to close the gap between 
AML's compliance regulations and practical barriers to 
enforcing them.
    So simply put, attacking terrorism financing using cultural 
objects and art is impeded by the current inability to cross-
reference independently reported and organized pieces of 
information to identify anomalies and suspicious activity. 
Comptroller of the Currency Curry commented in March of 2015 
that the need is for more accurate and timely information and 
the use of technology to close information gaps. We believe 
FinCEN has the authority to place art title insurance companies 
under the BSA for information-sharing with safe harbor 
protection to ignite this kind of solution in the industry that 
would enable detecting effective patterns.
    Lastly, I mentioned technology solutions which are now 
underway to address the lack of accurate information reliably 
linked to artistic and cultural objects. Currently, at the 
State University of New York's campus at Albany, through a 
nonprofit organization called the Global Center of Innovation 
for i2M Standards, standards-based solutions similar to NIST, 
ISO, ANSI, to enable technologies, the equivalent of a 
nanoscale vehicle identification number for artistic objects 
and cultural objects, is now within reach to anchor objects so 
that this information can be generated in the industry and 
provide reliable information.
    Thank you.
    [The prepared statement of Mr. Shindell can be found on 
page 96 of the appendix.]
    Chairman Fitzpatrick. Thank you, Mr. Shindell.
    And I thank all the witnesses for their testimony here 
today.
    We are now going to move to the Members' questions. First, 
I am going to recognize the gentlelady from Missouri, 
Representative Ann Wagner, who had previously served as 
ambassador to Luxembourg, which gives her a unique perspective 
on this particular subject.
    The gentlelady is recognized for 5 minutes.
    Mrs. Wagner. Thank you. And I thank the chairman for his 
courtesy in letting me jump ahead here.
    Thank you all for appearing before the task force today to 
discuss key elements that terrorists abroad are using in order 
to obtain illicit financing.
    Antiquity smuggling and the sale of cultural artifacts has, 
frankly, been occurring since the 1980s and 1990s under the 
regime of Saddam Hussein, as you well know, in order to avoid 
international sanctions. And today the Islamic State is using 
it to raise financing to fuel their operations and expand 
terrorism worldwide. Understanding the prominence of this 
activity and how it intersects with our financial institutions 
and markets is critical to cutting off this source of funding 
for terrorists and aiding in our efforts to eliminate ISIS.
    Mr. Shindell, it is great to see you again.
    Mr. Shindell came to meet with me in my office back, I 
guess, in the beginning of 2015, and we have been exploring 
this issue ever since.
    In your testimony you note that anti-money laundering and 
counter-terrorism financing laws are limited when it comes to 
the trade of cultural property because they are not explicitly 
covered in those laws' standards. How can we best address money 
laundering through the art trade, sir?
    Mr. Shindell. It really comes back to organizing the 
information. So we have heard a lot of testimony, which is 
important, about on-the-ground means to prevent the looting of 
the object specifically; but once it leaves the ground and 
enters the trade, it is the lack of a systemic system to 
monitor what is happening to that object.
    And so between gaps in information, unreliability of 
information because of the lack of means to verify that an 
export document may be a forged document. And so what happens 
is there is a specific strategy in many circles of the industry 
to move up the ladder from less important trade sources to more 
important ones, and each step of the way creates a veneer of 
credibility so that when the object gets to the good-faith 
market, everything is out of control.
    So a means that anchors information every step of the way 
would shut down the problem.
    Mrs. Wagner. Right. And I am sure you are keeping up with 
current events. Was there an issue with stolen art involved in 
the recent Panama Papers issue? And could you please briefly 
discuss the details of that?
    Mr. Shindell. The Panama Papers situation highlights what 
effectively becomes the black hole in the industry because of 
lack of transparency. So while none of us knows more than what 
has been reported in the media so far, on many objects that are 
implicated in that the real problem is what one doesn't know 
because of the lack of transparency.
    So yes, stolen objects may end up in tax-driven facilities 
anchored in Panama, which enables hiding that kind of 
information.
    Mrs. Wagner. So a uniform system that all can be a part of 
and buy into across-the-board is what is, I am assuming, 
necessary in this space.
    You mentioned briefly, Mr. Shindell, that your company 
submitted a request to FinCEN, I believe in 2014, that art 
title insurance be subject to the Bank Secrecy Act. Could you 
please explain why you made that request, sir?
    Mr. Shindell. It is a means to create information-sharing 
in the financial sector. So let's suppose one of the large 
banks in the United States is offered a basket of art objects, 
whether cultural heritage objects or art as we might normally 
think of it, for a loan transaction for $50 million.
    Right now, because of the lack of information-sharing, that 
financial institution would have no way of knowing whether that 
same basket of assets was presented to 6 banks around the world 
in the last 30 days, each of which on different information, 
none of which is accurate, because their lens is limited to the 
transaction that is in front of them. And because of a title 
insurer's role, which is the keystone to asset integrity and 
beneficial ownership information, it becomes, in effect, the 
vortex to organize its information and take what would be 
fractured noise to any individual institution and turn it into 
reliable, curated, privacy-protected information that could be 
deployed back to then generate suspicious activity reports and 
so forth as the banks are trying to comply.
    Mrs. Wagner. Thank you, Mr. Shindell.
    Dr. Gerstenblith, the Financial Action Task Force in 
February 2015 recommended that financial institutions and the 
private sector should improve efforts to prevent suspicious 
transactions. What progress has been made and what additional 
steps--oh, I believe I have run out of time--can the private 
sector take to improve these efforts?
    Ms. Gerstenblith. I would like to start by pointing out 
that at the moment it is not illegal--or not necessarily 
clearly illegal--to bring antiquities from Syria into the 
United States. They have not been included in the OFAC 
sanctions and there is no general legal principle--
    Mrs. Wagner. That is a huge hole, yes.
    Ms. Gerstenblith. Yes.
    Sorry. Yes, which would be, we hope, plugged very soon. And 
that is not even the criminal provision; that is only going to 
be something that leads to civil forfeiture. So before we go to 
more advanced things, we need to do that.
    Mrs. Wagner. I thank you.
    And I yield back the remainder of none of my time that is 
left and hope that my colleagues will explore that further. 
Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Fitzpatrick. The ranking member of the task force, 
Mr. Lynch, is recognized for 5 minutes.
    Mr. Lynch. Thank you.
    And just following up on Mrs. Wagner's line of questioning, 
it might be profitable for us to look at the Panama Papers side 
of this, as well. And some suggested legislation, I know, in 
the past on the issue of terrorist financing. We have gone to 
Jordan, to Morocco, other places, where we have asked their 
legislatures and their leadership to adopt anti-money 
laundering or anti-terrorist financing legislation in those 
countries so that we do have a means of enforcement.
    Mr. Fanusie and also Mr. Shindell, I have a question. The 
committee regularly travels to Iraq; we just came back last 
week from Anbar Province and we spent some time--many of us, 
numerous times--in Southern Turkey on the Syrian border. And we 
have had an opportunity to meet with rebel groups operating in 
Syria against Bashar Al-Assad.
    A lot of those groups there, including ISIL, are using the 
social media platform WhatsApp. And just going back to Mr. 
Shindell's question about the chain of custody on some of these 
artifacts, what is coming out of Syria and Iraq, and the source 
of origin, that whole issue, is there a way for us to 
interdict--I know they are marketing and selling these 
antiquities in many cases on WhatsApp--the social media 
platform. Is there any way for us to interdict that--
    Mr. Fanusie. Maybe I will say something and then Dr. Al-
Azm, I know--
    Mr. Lynch. Dr. Al-Azm, as well? Please, anybody who feels--
    Mr. Fanusie. Go ahead, because I know you have been dealing 
with--
    Mr. Al-Azm. Let me just say at the outset, this is what we 
do on a daily basis.
    Mr. Lynch. Yes.
    Mr. Al-Azm. We track these sales. We have people on the 
ground who actually meet with these dealers. On my WhatsApp, I 
receive dozens of these photos every day.
    Mr. Lynch. Okay.
    Mr. Al-Azm. The problem, however, is we receive this 
information. What happens to it next, that is the big hole, and 
I quite agree with Mr. Shindell. We have no means of then 
moving this information on to be acted upon in any meaningful 
way; it is just information that gets stacked up, and then it 
goes down the rabbit hole and it disappears, never to be seen 
again.
    So there is a complete breakdown in terms of how this 
information is used.
    I can collect a lot of--I collect a lot of information 
every day. This was collected by people on the ground who are 
standing there photographing and then passing that information 
on to us, and then what happens to that information afterwards 
is really the big question--
    Mr. Lynch. I see.
    Mr. Al-Azm. --and how it is used effectively.
    Mr. Lynch. Mr. Shindell?
    Mr. Shindell. There are three ingredients to make these 
solutions work: one is the means to anchor the object so 
everyone knows this is the exact object we are talking about; 
two, to then anchor verified information to that exact object 
so one knows the image actually belongs to the object that is 
moving in the market, and often there can be a disconnect 
around that; and three, is a means to organize that information 
to identify the anomalies--in the technology world today we 
speak of it in terms of predictive analytics and other things 
that can instantly say, through information generated at a 
different timeline in a different part of the world, the object 
that just came up on WhatsApp is at issue. So those are the 
three ingredients.
    Mr. Lynch. Okay.
    Mr. Fanusie, anything to add?
    Mr. Fanusie. And I will just add that there is an 
opportunity there, too, because, as we know from law 
enforcement that social media can be used to go after criminals 
and to go after smugglers outside of antiquities. So there 
actually are--if WhatsApp, eBay, Facebook--as these platforms 
are being used to market the antiquities, the interdiction can 
come from law enforcement getting involved on those platforms.
    Mr. Lynch. Right. We have had some issues with the 
encryption piece of that, and that is probably why it is a 
platform of choice, I think, right now.
    And I probably should have said this at the beginning. 
Thank you. Thank you, each of you, for your work on this issue. 
We have really benefited greatly by your expertise and your 
willingness to work with the committee. Thank you.
    I yield back.
    Chairman Fitzpatrick. Thank you.
    I now will yield 5 minutes to the chairman of the House 
Committee on Foreign Affairs, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. I want to thank you, 
and I also want to thank Mr. Lynch, as well, for your work on 
this issue.
    I just returned from the Middle East, where I was honored 
to speak at the Iraq Museum in Baghdad about the need to 
counter ISIS' trafficking of priceless antiquities. And one of 
the great shocks when you are in that part of the world is to 
realize, just as the Third Reich in Germany tried to destroy so 
much history with the book-burning and the history of the 
German tribes, just tried to restart everything by destroying 
evidence that went before it, here you have ISIS and you have 
the Taliban and groups like that which are united in their 
concept of just trying to destroy all evidence of Assyrian 
civilization, Babylonian, any Christian examples of churches or 
art in that region.
    And I think the appalling aspect of it, when you consider 
that you see some of these ISIS spokesmen and other Islamists 
talk about taking the pyramids down brick by brick, you begin 
to realize--from what we saw in Afghanistan, as well--when they 
talk about wiping out evidence of Buddhist civilization, they 
mean it. They really are committed to this goal. Palmyra would 
be a case in point. But at the same time, for the smaller 
antiquities that they can sell for the hard currency, they are 
not beyond engaging in that kind of criminal activity.
    And I was going to ask Dr. Gerstenblith, we have--Doctor, I 
know how much we have worked on this over the years, and we 
have the bill that Eliot Engel and I have introduced, H.R. 
1493, to try to address this. This is coming back from the 
Senate this week. Could you speak maybe about this concept of 
protecting and preserving cultural property through this kind 
of legislation?
    Ms. Gerstenblith. Certainly. Thank you, Mr. Royce. And 
thank you, of course, for your leadership on H.R. 1493.
    As I mentioned before, currently there is no legal 
mechanism clearly in place that would prohibit the import of 
antiquities from Syria into the United States. And I will say 
prospectively that same situation applies to Libya, where ISIL 
seems to be moving next.
    So in order to prevent these objects from coming to the 
United States, but, perhaps more importantly, to convince the 
middlemen and the dealers and the looters along the way that 
they will not eventually be able to sell these things in the 
United States, it is important that they understand that the 
United States will not ultimately be a market for these looted 
objects. And only by cutting down on market demand can we 
convince those middlemen that they will earn less money or no 
money, and it works its way back the chain to the people on the 
ground. And in that way, if these objects are not saleable, 
then ISIL will also earn less money from the antiquities 
looting.
    Mr. Royce. And we also were in North Africa, in Tunisia, 
and we saw the results of the attack there on the museum in 
Tunisia. This is ISIS now in Libya that comes over the border 
and carries out attacks specifically against museums. And, of 
course, in Libya also they are destroying these cultural 
artifacts that date back to the Carthaginian period, or Roman 
and Hellenic periods.
    Maybe I could ask Mr. Fanusie, can you expand on why 
terrorists and criminal groups like ISIS are so attracted to 
antiquities smuggling as a means of getting that revenue, that 
hard currency? And can we approach this in the same way as we 
did on the legislation that we had authored on blood diamonds, 
some methodology to try to shut down the ability to traffic in 
this?
    Mr. Fanusie. Yes. I think there are some parallels.
    For the first part of your question, it is a unique 
strategic resource, right? If you look at ISIL's--all of the 
revenue that they get, much of what they have gotten early on 
was from taking over territory and dispossessing the people 
that they took over.
    But antiquities provides this opportunity for them to 
consistently continue to get new resources. There are so many 
sites. So you have almost--it is maybe not a renewable 
resource, but a flowing resource of revenue, and you have 
willing partners or willing people who are there to loot.
    So that is a real strategic benefit, something that they 
can do. As someone said earlier, they institutionalized it and 
have sort of intensified it.
    In terms of blood diamonds, I think the parallel is we have 
the ability to change the conversation to sort of shift the 
perception in the public that you should understand how 
diamonds are--where they were produced. I think we can, one, 
learn from some of that approach; but two, with the blood 
diamonds issue, there were some concerns about credibility and 
accountability.
    We could learn from--there are lessons learned from ways 
that maybe didn't work well enough. So there are definitely 
some parallels.
    Mr. Royce. Mr. Chairman, the bill will be coming back this 
week. We will have a chance to vote on the bill that Mr. Engel 
and I authored. And I appreciate this forum to discuss the need 
for us to act quickly.
    Thank you very much.
    Chairman Fitzpatrick. We look forward to it. And thank you, 
as well, for your leadership on that important issue.
    The gentleman from Michigan, Mr. Kildee, is recognized for 
5 minutes.
    Mr. Kildee. Thank you, Mr. Chairman.
    And thank you, to the panel, for a very interesting and 
important set of presentations.
    I wonder if I could ask Mr. Shindell if you would spend a 
minute or 2 expanding a bit on your comments on free ports, the 
use of free ports as it relates to antiquities. I guess the 
concern that I have is that it appears that--first of all, I 
guess the main question would be to what extent are we seeing 
free ports used as a method to sort of cloak the transactions 
related to antiquities?
    Are we seeing multiple transactions taking place in the 
dark that make it more difficult to track the chain of title? 
And what other difficulties do you see in terms of the way free 
ports might be used in the context of this question?
    Mr. Shindell. So within the category of free ports there 
are also free zones, and in our written testimony there are 
several thousand free zones around the world as well as art 
industry-recognized free ports. And they are all way stations, 
if you will, in the movement of these assets. And, of course, 
most of the industry is using those facilities for correct and 
legitimate purposes.
    The problem is the nature of the industry and the rapidity 
with which things move in the industry make it very difficult 
for Customs and border officials around the world to know 
whether the information that is being provided in the paperwork 
as works go in and leave is valid. So it becomes a blanket that 
obscures accurate information, which then drives trade-based 
money laundering in general and the movement of cultural 
artifacts, as well.
    I would estimate that the use of free ports right now is 
less for cultural artifacts than art in general, but it is also 
on the rise as people sort of listen to the beating drums in 
the industry, because they become challenging and, as a result, 
holes of lack of clarity, and that enables the movement of the 
asset.
    Mr. Kildee. Would you be able to suggest any potential 
changes that would mitigate against the use of free ports or 
other tax havens in order to execute transactions related to 
antiquities--for example, extending safe harbor protections to 
brokers, dealers, other individuals involved in these forms of 
transactions in order to provide information that could be 
helpful to law enforcement authorities?
    Mr. Shindell. The real problem is no one of those parties 
has enough information to associate it with anything else, so 
it becomes noise. And that is why we have been focusing so 
much, and the State University of New York's global initiative 
has been creating ways to organize that information.
    So they are good pieces of a strategy, but until you create 
a means to organize the information holistically, a very 
complex amalgam of information, driven by the high mobility and 
international nature of the market, becomes the ultimate 
obstacle that has to be overcome.
    Mr. Kildee. And I guess one last question, and I would 
direct it to Dr. Gerstenblith, although others may comment, and 
that is the question as to what extent is satellite imagery 
available to those in academia in order to evaluate existing 
sites--sites that might be currently under the control of ISIS 
or others sort of before and after? Are you able to gain access 
to satellite imagery in order to make evaluations as to the 
extent of the work that is being done there?
    Ms. Gerstenblith. Right. Several groups--private groups, 
some in partnership with the State Department, the American 
Association for the Advancement of Science--have had access, 
through the government, to satellite imagery. One question is, 
however, there are some gaps.
    And we don't have some satellite imagery that would be very 
useful--or they have not been made public, I should say, or 
made available to researchers so far--for example, what the 
condition of Palmyra was just before the offensive was taken 
over. So it has been difficult to assess how much damage was 
actually done by the Russians and perhaps the Assad regime as 
they retook the site, as opposed to what was done earlier by 
ISIL.
    But the satellite images that have, at least to some 
extent, been made available have been very important because 
obviously people can't go in on the ground to find out what is 
happening. It is not a perfect tool, but it is the tool that we 
have accessible to us.
    And from that, there is a group at the University of 
Chicago that is working to actually quantify not only numbers 
of holes in the ground, which, of course, there are many--
thousands and thousands--but also to determine, based on 
excavation reports of those sites, how many objects are coming 
out, and again, by using algorithms spread out over periods of 
time and large quantities of data, to come up with an actual 
assessment of how many and what types of artifacts have been 
looted under ISIL control. In another phase, this group is 
conducting in-depth market study, also over a large quantity of 
data, to try to come up with a realistic number of--a dollar 
figure of how much money are we talking about.
    Mr. Kildee. Thank you.
    Mr. Chairman, I see my time has expired. I thank you and 
the ranking member for holding this hearing and I thank the 
panel for your really important testimony.
    With that, I yield back.
    Chairman Fitzpatrick. Thank you, Mr. Kildee.
    The Chair now recognizes the vice chairman of the task 
force, the gentleman from North Carolina, Mr. Pittenger, for 5 
minutes.
    Mr. Pittenger. Thank you, Mr. Chairman.
    Mr. Shindell or Dr. Al-Azm, what are the legal privacy laws 
that would impede us in our ability to deal with the art 
dealers, the financial institutions, auction houses, insurance 
companies, in transfer of information on suspicious activity? 
What can we do in that regard?
    Mr. Shindell. I don't think the problem is the current 
state of the privacy laws, but rather getting the core 
information to then provide what the industry would refer to as 
curated, privacy-protected information. So if we go back to the 
example I used a minute ago of the bank loan scenario, were 
there now a means to associate a series of transactions around 
the world that were the same assets to provide a response back 
to the current financial institution, that would then trigger 
the AML suspicious activity reporting regime and all the 
privacy issues around that with law enforcement.
    So what would then happen is the system would know there is 
suspicious activity around these particular objects that are 
being used potentially for some problem or another, whether it 
is trade-based money laundering or terrorist financing. And 
then the system we have in place would trigger under its 
existing rules and regulations.
    So I don't think we need a change in what is private or 
not, but organizing the information to provide curated, 
privacy-protected but effective information for intervening.
    Mr. Pittenger. Thank you. So this deals mostly with just 
the transfer of information that would be compatible, that 
would have access to certain data?
    Mr. Shindell. Correct, from a high level. So you would 
know--the bank would know, for example, the objects are at 
risk. They would then have the information they--
    Mr. Pittenger. --access to the same data. Thank you.
    Targeted sanctions. Give me some insight into that, how we 
would address that, considering the middlemen and private 
collectors. They don't have anything to do with ISIS, but how 
would we impose sanctions?
    Ms. Gerstenblith. I think sanctions could be imposed on the 
import. In other words, the antiquities from Syria should be 
listed on the sanctions list. OFAC has been asked twice that I 
know of to do that and has so far refused to do so.
    If I could go back for just a moment to the last question 
also?
    Mr. Pittenger. Certainly.
    Ms. Gerstenblith. There is a great deal of secrecy. The 
name of a seller is never made public when sold through an 
auction house. There are agency and fiduciary agreements with 
an auction house. Those names are not public. It would require 
a court order and a court process to get the name of a seller.
    The buyers frequently are also not made public. Things are 
sold through the Internet without names at all.
    So I think there is a huge amount of secrecy. Maybe I am 
looking at it on a more micro scale than Mr. Shindell is.
    Mr. Pittenger. It is a real scale. I appreciate hearing 
that.
    Ms. Gerstenblith. But I think there is a lot that could be 
done that would require that kind of information.
    Mr. Pittenger. Thank you.
    Mr. Al-Azm. I would just add that most of the material 
coming on--actually coming out of the ground right now is not 
even making the market; it is just being sold, transacted 
between dealers, and it never sees the main market. So most of 
this is actually academic when it comes to currently--material 
currently being looted.
    Mr. Shindell. If you wish, I could clarify the privacy 
item--
    Mr. Pittenger. Yes, sir. Please do.
    Mr. Shindell. --a bit further.
    Mr. Pittenger. We would like to know if it is necessary for 
it to be public for law enforcement to be engaged in it.
    Mr. Shindell. As a title insurance company, we function as 
the safe haven or safe harbor where the information that is 
kept secret market-wide is disclosed to us under 
confidentiality provisions because we need to have that 
transparency to do our job. And that information only becomes 
relevant if there, in fact, is a problem or suspicious 
activity. And that becomes the information-sharing element 
under the BSA, for example.
    We would agree the industry in many respects operates for 
privacy reasons, many of which are legitimate, many of which 
are not, and that can be managed. But it is not as though the 
industry, from our standpoint--
    Mr. Pittenger. Thank you very, very much.
    Talk to me some more about money laundering and the art 
trade, and what is--what could be done there to address that 
issue.
    Mr. Al-Azm. I believe that this is something like a bridge. 
Militarily, to take a bridge you have to take it from both 
ends. So obviously there is the buying end or the demand end, 
but there is also the supply end.
    And I can really only speak to you on the supply side 
because that is the side I speak to and that is the side I work 
with. Really, the best thing we can do right now is to try and 
document as much as possible what is coming out of the ground, 
and that is really a huge task and that is what we are focused 
on.
    Our problem, then, is how do we then manage to pass this 
information on? What mechanisms are available to us in terms of 
being able to share this information? And, more importantly, 
how that information is then used to pursue or retrieve at some 
point, or even interject to prevent further transactions.
    Mr. Pittenger. Thank you.
    My time has expired. Thank you.
    Chairman Fitzpatrick. The gentleman from Pennsylvania, Mr. 
Rothfus, is recognized for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman, and I thank the panel 
for a very informative discussion.
    I am wondering if Dr. Gerstenblith can answer this 
question, or if not Dr. Gerstenblith, then perhaps another 
panelist: Can we have--is there an estimate at all of the 
number of Americans who may have purchased illicit artifacts or 
antiquities over the last 10 years from the Middle East? Can we 
quantify that in any way?
    Ms. Gerstenblith. I think that would be very difficult, 
partly because--again, with antiquities, because they are 
unknown and undocumented, proving what is legal and what is 
illegal is extremely difficult. And so you have to go object by 
object and make a determination first of what is legal or 
illegal.
    But I would certainly say--you are including purchased in 
any way, including the Internet?
    Mr. Rothfus. We have estimates of the total value of the 
transactions. Somehow we are getting those estimates. And so I 
am trying to get some of the data behind those estimates.
    Ms. Gerstenblith. I would only say the United States is the 
largest market for these kinds of antiquities. And my guess 
would be we are probably--if you include everything for 
antiquities, you are at least talking about tens of thousands 
of people, but not--it is not a huge, huge--
    Mr. Rothfus. And the value for the American purchasers?
    Ms. Gerstenblith. Do you have an answer to that?
    Mr. Rothfus. Versus European. What is the bifurcation 
between American and European--
    Ms. Gerstenblith. Oh, of the art market overall, the United 
States is 43 percent; England is the second--U.K. is the 
second-largest at 22 percent. So we are double the next-largest 
single market for art overall.
    And the dollar value of art--fine art--is much higher than 
the dollar value of the antiquities. But the contours are 
probably similar, and it is also a function of taste and 
tradition that in the United States what collectors collect is 
Mediterranean and Middle Eastern antiquities.
    But I think Mr. Fanusie wants to add to that.
    Mr. Fanusie. I wasn't sure if you wanted to touch on 
Customs data, which doesn't specifically get at the question of 
who, but one of the things that we have done is to look at 
changes in Customs data around artifacts or antiques. But 
again, that data is for legal purchases--or at least ostensibly 
legal purchases that have come in from elsewhere. But that is 
data just coming into the United States that might have 
transited through various countries.
    You can look at that data to get a sense of how the tide 
has risen with certain categories of items and antiques. But 
again, that is what we know and that is what people say 
legitimately--what they are legitimately importing into the 
country, but not for an individual assessment.
    Mr. Rothfus. And I imagine there--in the industry there is 
a separation in dealers: there are legitimate ones who are 
looking at whether these artifacts are provenanced, and others.
    Are there any obligations that a dealer has now to know the 
seller, who the seller is? Even though it is a private 
transaction--we may not know who the seller is; we may not know 
who the buyer is--but is there any obligation on the part of 
the dealer who will be conducting the transaction to know who 
the seller is?
    Ms. Gerstenblith. There is no legal obligation on the part 
of the dealer to know who either the seller or the buyer is, as 
long as the dealer is getting whatever finances they want to 
get out of the arrangement.
    And I would say even at the top end of the market, just in 
the past month at Christie's--a top-end public auction--several 
pieces were picked up by law enforcement that came from 
Southeast Asia, and a couple of pieces were picked up that were 
classical antiquities. So even from the people that you would 
think would be doing the most provenance research, where the 
fault lies is another question perhaps, but clearly illegal 
antiquities surface even at the top end as well as all the way 
through the market.
    Mr. Rothfus. What can we be doing to prevent that from 
happening?
    Ms. Gerstenblith. I had several suggestions in my written 
comments, but I think we need better tracking of objects, both, 
perhaps, by tracking better what is coming into the country, 
certainly there is no tracking of what is leaving the country.
    I think we could require that these kinds of documents be 
maintained and made available to law enforcement. Right now, 
law enforcement needs a search warrant before they can get 
information about who is selling what and what is the 
provenance information for that.
    There are a number of things about making this a higher 
priority overall. The number of packages that are searched 
coming into the country through Customs is really minimal, and 
it depends on which port they are coming through. Some don't 
know anything about antiquities trafficking; some, like New 
York, have so much that comes in that only if something has a 
declared value above a certain amount will Customs even look at 
it.
    So overall, this is just not considered a high priority by 
law enforcement, especially on Customs' side. And there are far 
too few prosecutions connected with violations of Customs law.
    Customs in general is happy if they can seize, forfeit, and 
repatriate something. They have a beautiful repatriation 
ceremony. It does nothing to stop the illegal trade.
    People are happy to give an object back. Only if the 
government pursues criminal prosecutions--the threat of 
criminal enforcement and the possibility of jail time--will the 
government really start to reach the market.
    Mr. Rothfus. I see my time has expired. I yield back.
    Chairman Fitzpatrick. The gentleman from Texas, Mr. 
Williams, is recognized for 5 minutes.
    Mr. Williams. Thank you, Mr. Chairman.
    And thanks, to the panel.
    I first of all want to say hello to my good friend and 
fellow Texan, Mr. Edsel, and state to all here that you are a 
Texas treasure. We appreciate you.
    Now, Mr. Edsel, I was glad to see that the Monuments Men 
received a Congressional Gold Medal for their contributions in 
protecting artifacts during World War II last year. Your 
contribution cannot be understated, and personally, I felt like 
it was long overdue and I was proud to support that effort.
    My first question is, you have said that a major benefit of 
the Monuments Men effort was that noncombatants in Europe were 
grateful to Allied forces not only for liberating them but for 
preserving the cultural history of the continent. Would you 
elaborate on that? And do you believe the same would be true if 
we were better able to save antiques and other cultural objects 
in the Middle East today?
    Mr. Edsel. Thank you for your kind remarks, and thank you 
for--you and all of your colleagues--for the support of the 
legislation to award the Monuments Men with the Congressional 
Gold Medal. It was quite a moment.
    Yes, I believe that the United States would be looked upon 
favorably by nations of good will throughout the world, and I 
think the evidence is irrefutable, because look at what 
happened in 2003 in the aftermath of the American-led invasion 
of Iraq. Not getting into the issue of whether we should or 
shouldn't have been there, but it raises the issue of what is 
the responsibility of the United States or any force when they 
are in a foreign country concerning the protection of cultural 
assets? And our failure to plan and take care of those assets 
caused enormous damage to the country's reputation around the 
world.
    I know from experience in interviewing Monuments Men, that 
during World War II, there was a great deal of skepticism 
because so much of the damage that took place in Europe was a 
result of allied bombing and artillery to soften up landing 
beaches. But time and time again the people expressed 
appreciation for the fact that you had to get rid of the bad 
guys, you had to get troops on the ground, and when they saw 
efforts to affect temporary repairs and then at the end of the 
war, in a break with civilization, return some of the 4 million 
objects--4 million--that these 100 or 200 men and women, 
without any technology, no computers, managed to get back to 
the countries from which they were taken.
    So I think there is no question. Yes.
    Mr. Williams. Are we doing enough as a nation--and I think 
you have kind of touched on this--to safeguard the cultural 
heritage in these regions of the world? And what more can we 
do?
    Mr. Edsel. This is a great question and it is a challenge 
of our time. Look, it makes no sense for us to be sending 
modern-day Monuments Men, people with Blue Shield and Patty's 
organization, which are doing great work, into harm's way 
without force protection. It worked in World War II because we 
had 3 million troops in Europe.
    But to say that because we can't put troops on the ground, 
we can't do anything, is ridiculous. The United States is a 
leader in technology and we are not using all the tools 
necessary to try and put an end to a lot of these things.
    We have discussed--and there have been some good questions 
here of the panel--steps that can be taken going forward. There 
are two realities about collectors that are inarguable: They 
love to show people what they have--that is a problem if it is 
hot; they hate losing money--that is a problem if you 
demonetize illegally owned works of art.
    And I am not talking just about objects that come from 
these war zones, but going back to Nazi-looted art, works of 
art that were stolen from the Isabella Stewart Gardner Museum 
from Mr. Lynch's part of the world, objects that are stolen 
from churches in Italy, all over the world. These things don't 
get stolen unless there is someone to buy them. They don't get 
stored in these tax-free zones unless something thinks 
eventually the spotlight is going to move away and there will 
be collectors that can buy them.
    So if we have some process to register works of art--
perhaps there should be a threshold there where there is a 
clean bill of sale--you have this, your things--your work of 
art, whatever it is, a small object, a painting--is known, 
there is no chance to--there is not concern about it being 
something that was smuggled, it is going to be a disincentive 
for people out there with lots of money to be out there buying 
these things knowing that, ``Where is your piece of paper? I 
don't want to buy this thing unless it has been cleared.''
    Is it a huge challenge for us from a technology standpoint? 
Sure. It is work.
    But 100 to 200 Monuments Officers in the face of a war that 
claimed 65 million lives with no tools of technology found and 
returned 5 million objects. So I am not really interested in 
hearing someone tell me all the difficulties or why something 
can't be done today when we can read a credit card from space.
    So the technology is there. The question is, is the will 
there? And in the process of addressing the diminution or 
termination of the sale of looted antiquities, and in this kind 
of increased reporting, bring transparency because who is 
against transparency?
    If we bring that into the arena, we are not only going to 
be cutting down on trafficking and sources for organized crime, 
for ISIS and other terrorist organizations, but the Internal 
Revenue Service is going to be getting more of the revenue that 
is--that it is due, which is going to take a burden off of 
taxpayers who are having to carry the share of people who are 
trying to duck the system; it is going to return works of art 
to the places from which they were stolen.
    There is no downside to doing this. It is just a matter of 
the will.
    Mr. Williams. Thank you for your testimony. You sound like 
a guy from SMU.
    I yield my time back, Mr. Chairman.
    Chairman Fitzpatrick. The gentleman from Arkansas, Mr. 
Hill, is recognized for 5 minutes.
    Mr. Hill. Thank you, Mr. Chairman.
    And I thank the ranking member for your work on this 
important topic.
    Mr. Edsel, I was at the ceremony for the Congressional Gold 
Medal and it was touching. It was great to see some of the 
remaining Monuments Men and their families there, and it was 
really touching.
    I want to start out and talk about motivation here, and 
isn't ISIS or other motivations and the destruction and 
marketing of these cultural items really an issue of trying to 
establish cultural superiority? Isn't that what drives people 
when they do this sometimes?
    If you look back at your experience and looking at Europe 
in World War II, didn't Hitler want to demonstrate cultural 
superiority in capturing all this art, and having it and 
possessing it?
    Mr. Edsel. Yes, that is a significant factor. There is no 
question that if you look over the 20th Century and we do a 
little bit of study of history here, the genocides that end up 
happening, the Holocaust during World War II--Jews weren't 
incarcerated and murdered immediately because there is a key 
component of the theft and destruction of these objects, and 
that is the process of humiliation.
    We are going to detain you. We are going to put you in 
concentration camps. But while you are alive, we are going to 
steal the things and destroy the things which define you as a 
civilization. And, yes, we are going to kill you later on, but 
we are not going to do it yet.
    And we saw this in Bosnia-Herzegovina; we have seen this in 
Mali, the destruction in Timbuktu of Islamic treasures by 
people who are purporting to be followers of Islam. But these 
are treasured relics that defined that civilization, and the 
process begins by destroying them.
    And now we have--it is not really a modern twist. I think 
when you look back over Nazi Germany, if you want to talk about 
institutionalizing the looting, the Nazis wrote the book on it. 
The amount of resources that were dedicated in an organized 
way--troops, trucks, planes, trains--to move around all of the 
cultural treasures of Western civilization, from butterfly 
collections, to the church bells in the cathedrals, to 
paintings, to drawings, to statues, was extraordinary and a 
distraction to the war.
    Okay, ISIS may not have quite those resources at this point 
in time or that degree of organization. But there is a strong 
incentive for them to do it, and I think certainly the things 
that are immovable are at great risk of being destroyed. We saw 
that in Palmyra, and Bamiyan Buddhas with Al Qaeda in 2001.
    We see it now evolving to things that can be sold. Why 
destroy them when we can sell them and convert them to cash?
    Mr. Hill. Yes. I think this is a cultural genocide, just 
like we are experiencing religious and human genocide in the 
Middle East. And it is a great tragedy and it is one that I 
think our Administration has been behind the curve on now for 
multiple years, and others in Europe and Russia, as well.
    I am also interested in H.R. 1493. Why limit this to--Dr. 
Gerstenblith, why limit this to Syria? For example, why don't 
we ban the importation of cultural treasures from other 
countries?
    How do we determine that these are recent versus something 
that actually has provenance and is out in the marketplace? 
Aren't we hurting a legitimate antiquities trade potentially?
    And finally, aren't we enabling the Assad regime, which you 
have testified here today is just as destructive of these 
cultural treasures as ISIS ever was? And why are we, therefore, 
institutionalizing their control of these icons? They may sell 
them themselves, right?
    Ms. Gerstenblith. Right. I am not sure how we are 
institutionalizing or helping the Assad regime. Those objects 
would also be unsaleable in the United States if they were 
seized and forfeited at the border. Maybe that is what you are 
thinking of?
    Mr. Hill. They go back to Syria, do they not?
    Ms. Gerstenblith. They would not go back--first of all, 
title gets transferred to the United States Government, and 
then the U.S. Government would decide when to return them. And 
I don't think that will happen as long as Assad is in power.
    So who knows what government is going to emerge at the end 
of the day, but I would imagine this would be at a point when 
relations are normalized with whatever government is in Syria. 
So I don't see this as helping out the Assad regime. And I 
agree that they are doing lots of bad things, too.
    What we call the normal--there is a normal process in place 
under the Convention on Cultural Property Implementation Act 
for imposing import restrictions on cultural materials from 
countries that ask for our assistance--U.S. assistance. That 
has to start with a request from the country.
    Syria had not done that in the past. Libya, Tunisia, 
Morocco--none of them have done that. They are all at risk at 
this point in time, and any number of other countries in the 
Middle East are at risk.
    So that is the reason why H.R. 1493 is needed, to bypass 
primarily just that requirement of a request. And H.R. 1493 is 
written so that at the point when relations are normalized 
between the United States and a Syrian government in the 
future, that government is expected to bring a request under 
the normal process.
    Now, how this helps is that it changes the burden of proof 
and what needs to be proven at the border. So if I show up at 
the border with an object that may have recently come from 
Syria, once it matches what is called the designated list that 
State Department and Homeland Security promulgate, now I, the 
importer, have to show that it left Syria before March of 2011.
    That helps law enforcement significantly, but at the same 
time does not really impose a huge burden on the importer or 
the industry because showing where it was just 4 or 5 years ago 
shouldn't really be that difficult, if it really was out of the 
country before that point in time.
    So that documentation needs to be offered. There are a 
couple of other ways of showing documentation. But basically, 
at that point, the object would be importable into the United 
States.
    So I think this presents the best of both worlds: an 
attempt to not overly burden the trade; but at the same time to 
prevent those recently looted objects, from which essentially 
both ISIL and the Assad government may be receiving funding--
prevent those from coming to the United States now and into the 
future.
    Mr. Hill. Thank you.
    I yield back, Mr. Chairman.
    Chairman Fitzpatrick. Thank you.
    The gentleman from Kentucky, Mr. Barr, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Mr. Chairman, and Ranking Member 
Lynch. Thanks for your leadership on this important hearing.
    There is nothing that to me is more disgraceful about what 
these terrorist organizations are doing than what we are 
hearing about here today.
    The International Council of Museums describes the 
situation as the largest-scale mass destruction of cultural 
heritage since the Second World War. The United Nations 
Educational Scientific and Cultural Organization director 
considers the Islamic State's destruction of cultural heritage 
sites in Iraq and Syria to be an international war crime. The 
Global Financial Integrity Group conservatively averaged and 
aggregated existing figures to estimate that the value of the 
illicit trade of cultural property may range between $3.4 and 
$6.3 billion annually.
    And so, Mr. Edsel, my question to you, and following up Mr. 
Hill's line of questioning is, in reading the statistics about 
the individual Islamic State looters, one estimate is that the 
looters themselves, the Islamic State fighters who are actually 
pillaging these historical and cultural antiquities sites, 
really they are only taking about 1 percent off the top and 
that most of the profits from this illicit trade of antiquities 
is coming to inure to the benefit of the middlemen who are 
engaged in this.
    So my question is, obviously, this is some source of 
revenue for the Islamic State, but is it more a matter of 
wiping out the cultural and religious artifacts that are 
inconsistent with the twisted ideology of these terrorist 
organizations? Are they equal motives, or is one predominant?
    Mr. Edsel. I am sure it is a slippery slope trying to be an 
analyst for ISIS and what is going on inside their heads. I 
think what we can say is that the--if we can find a way to 
disincent by eliminating or reducing the revenue-making 
opportunities of stealing these things, we at least are cutting 
down on one of the main reasons that it is happening.
    Now, there is little we can do about addressing the 
ideological motivations for stealing or destroying things. 
Again, I emphasize I have people all the time say, ``Well, why 
don't we have Monuments Men, or why don't we have Blue Shield 
people there?'' It would be a suicide mission to send the 
troops into harm's way without having force protection.
    But the world has changed, as Monuments Man Mason Hammond 
pointed out, and we have all sorts of weapons--non-military 
weapons--that we are not using that are, I should say, are 
evolving--this use of aerial photography to see developments on 
the ground, as Patty talked about, and others that we are 
really pioneering the use of--3D technology to do imagery of 
these non-moveable objects so that if they are damaged or 
destroyed they can be rebuilt.
    People are thinking about these things now. This is a 
positive step.
    Mr. Barr. To Mr. Fanusie and Dr. Gerstenblith, you both 
mention in your testimony potential ways to disrupt the illicit 
trade of antiquities: applying additional tariff sanctions by 
the Treasury Office of Foreign Asset Control against 
antiquities smugglers and buyers; also, the Royce-Engel bill on 
import restrictions on Syrian antiquities. What is the best 
approach to diminishing the demand for these looted 
antiquities? An all-of-the-above approach?
    Mr. Fanusie. I think all of the above in the sense that we 
have made quite a few recommendations that can be used from 
different angles. I think when you talk about sanctions, what 
we are trying to get at is, is there is a difference between 
the threat of prosecution and the threat of having your assets 
seized, or the assets of people close to you?
    And so sanctions, even though being a bit of a bold move, 
provide a potentially greater incentive. It is a tool that we 
use. And you can debate how effective it is, but it is a tool 
that we use--
    Mr. Barr. In my remaining time, if I could just 
editorialize a little bit here, I appreciate the advocacy for 
sanctions and I agree with you. I support the Royce 
legislation.
    But because the motivation is not entirely profit-driven 
and financing-driven, and because it is an evil, toxic ideology 
we are talking about here, ultimately the only way that we are 
going to be able to protect these antiquities is to take back 
the territory that these radical jihadists control. And 
ultimately, that is going to have to happen in order for us to, 
in the long run, preserve and protect these sacred sites.
    And with that, I yield back.
    Chairman Fitzpatrick. The gentleman from Maine, Mr. 
Poliquin, is recognized for 5 minutes.
    Mr. Poliquin. Thank you, Mr. Chairman, very much. I 
appreciate it.
    Thank you all very much for being here.
    Mr. Edsel, let me ask you, if I may, sir: As more and more 
pressure is put on ISIS, hopefully, from the Western world to 
stop this horrible pillaging of our human history, do you think 
there are going to be different avenues that these folks will 
use to loot and to sell the antiquities?
    Mr. Edsel. Different than what they are doing now?
    Mr. Poliquin. Yes. Can you look down the road and 
extrapolate for us here, as more pressure is put on the 
combatants in this part of the world, what their reaction will 
be when it comes to funding their terrorist activities using 
this source of funding?
    Mr. Edsel. If we are successful in Syria and Iraq, I 
think--I agree with Patty, our focus shouldn't be on what to do 
now, because we already ceded that opportunity away once ISIS 
gained control of these areas. To ask what we should do about 
Palmyra is the wrong question.
    What we should be doing is thinking about what are we going 
to do about where they are going next, whether it is Libya or 
some other area? They will go; they will take this same type 
operation.
    If there is oil revenue--I was in the oil and gas 
exploration business for 15 years--that is a simple, fungible, 
immediately profitable way to generate revenue. But that 
doesn't mean that we, because it is the majority of revenue 
that may go to ISIS, that we shouldn't be concerned about these 
cultural treasures, in particular for this reason: We are 5 
percent of the people in the world in the United States. We are 
trying to figure out how to get along with 95 percent of the 
people in the world.
    The currency that connects people around the world are 
cultural treasures: sports; music; works of art. We don't 
necessarily look at the world that way here. It is not wrong; 
we are just a much younger country.
    But if we want to curry favor and do ambassadorial work in 
building up the esteem of the United States in the eyes of the 
world, showing respect for cultural treasures of other 
countries, which is the hallmark policy of President Roosevelt 
and General Eisenhower during World War II, will do more than 
all of the foreign aid we are giving away, in my opinion.
    Mr. Poliquin. Do you think that ISIS, as it spreads its 
ideology, for example, now, over to Libya, becoming much more 
active there, have you seen the same sort of illicit activity 
in that part of the Middle East?
    Mr. Edsel. That's not a question I am qualified to answer. 
But I know we have four people here that are, or three for 
sure.
    Mr. Poliquin. Doctor?
    Ms. Gerstenblith. We do know that they have taken control 
of several major archaeological sites in their territory in 
Libya. And there has been some anecdotal information. We don't 
have the satellite imagery yet of things being looted and 
stolen from Libya.
    If I could add quickly also, there is one big difference. 
If you have an oil--for instance, if you are getting revenue 
from oil, we can bomb it. The problem with an archaeological 
site is the last thing we want to do is bomb it. So that is why 
we need to control it through the market.
    Mr. Poliquin. I would guess that--
    Mr. Edsel. One other thing--let me just add quickly--you 
want to talk about the war going around, the areas that are of 
concern in Libya are the very areas that the very first 
Monuments Men started work in 1943 in North Africa in Leptis 
Magnum and other areas. So we are right back to where we began 
some 70 years ago.
    Mr. Poliquin. Mr. Edsel, do you think that purchasers of 
this artwork, these antiquities--these pieces, in America, are 
they aware--let me rephrase that, sir. Do you know of illicit 
artifacts having been purchased by Americans?
    Mr. Edsel. Of illicit artifacts not necessarily from this 
area, yes. From the area that we are talking about in a 
contemporary sense of antiquities, I don't have any personal 
knowledge, no.
    Mr. Poliquin. Can anybody else on the panel answer that 
question? What I am specifically looking to find is when folks 
purchase this type of three-dimensional artwork here in 
America, what is the probability of them knowing that, in fact, 
it has not been obtained through illegal activities?
    Mr. Shindell. I can comment on the good-faith market, and 
clearly there is a good-faith market and a not-good-faith 
market, like in any other sector. The good-faith market is 
trying as hard as they can to avoid acquiring or selling or 
taking as gifts implicated assets today. There have been 
different eras in the art world as the world has matured around 
these issues.
    There is no question, at the same time, that things fall 
through the cracks, despite the good-faith efforts.
    Mr. Poliquin. Now, are you talking about good-faith efforts 
of Americans and dealers here in this--
    Mr. Shindell. In the European market, as well, correct. So 
everyone who is acting in good faith, the credible sectors of 
the market, are doing their best to ferret out problematic 
assets in an environment where the information is limited and 
often inaccurate.
    Mr. Poliquin. Can you think of another way where we can 
avoid the heavy hand of the U.S. Government getting involved to 
help in some way these folks make sure that their good-faith 
effort is supported?
    Mr. Shindell. The analogy I would use--and I know you are 
hearing a constant theme in my comments because I really think 
it is the answer--if we look to the pharmaceutical industry, 
for example, which 20 years ago had enormous problems of 
adulterated drugs--it's still somewhat of a problem today, but 
it is far better than it was. And it wasn't until the entire 
supply and distribution chain, as we would use different words 
in the art world, came together and created systemic solutions 
that enabled assuring the integrity of the object.
    So here we have the same dynamic in certain ways. We have 
ideological motivations that are trying to eradicate identity. 
And I suppose at the same time they are saying, ``Well, as long 
as we have torn it down instead of burning it or destroying it, 
let's go sell it to get some money to further our terrorism.'' 
And that then takes it into the trade.
    And so a lot of the ideas are multidimensional and good 
ones on how do we, boots-on-the-ground, so to speak, or at the 
site, prevent the ideological destruction, and then how do we 
create lots of different barriers that ultimately deincentivize 
everyone in the trade, in the sequence, from monetizing around 
that asset?
    Mr. Poliquin. Thank you very much. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Fitzpatrick. The gentleman from Ohio, Mr. Stivers, 
is recognized for 5 minutes.
    Mr. Stivers. Thank you.
    A lot of great questions have already been asked, and I 
would like to follow up on some of those questions. And I have 
a question for Mr. Fanusie.
    You asked--or you said in your statement that if we could 
make declaring antiquities looting and cultural property crime 
a national security priority, we could really start to reform 
things, and that we need to make it an intelligence and law 
enforcement priority. How would we go about--is that just an 
executive action? Do you think there is a law that is required 
to make that happen? How could we make that happen quickly?
    Mr. Fanusie. One of the key things is where we put our 
resources to lead the effort. We already have institutions and 
agencies who are operating and dealing with this issue, but we 
should have probably greater resources towards some of those 
elements.
    So, for example, the State Department has a huge role in 
this. The issue of sort of cultural diplomacy is something that 
we could--the institutions for cultural diplomacy we could 
leverage more.
    A lot of what we have talked about goes to public 
perception. So there is the potential for us to emphasize and 
highlight in our diplomacy this issue--the cultural issue, the 
cultural property issue.
    If you think about--someone mentioned earlier blood 
diamonds, and you could also think about wildlife trafficking 
and the fur industry, right? These are industries where there 
is some--you can think about you have a cozy--an animal, or you 
have something that people are very familiar with because they 
deal with them every day--diamonds. But we don't have that in 
the same sense with antiquities. So I think we really need to 
raise the level, and State has the potential to do that.
    I would also say in DHS, within Customs, within ICE, you 
already have units which are dedicated to finding out if 
individuals coming into the country are involved in human 
rights abuses. So that is a structure that we could elevate for 
due diligence on--for people who may be dealing with maybe 
bring antiquities into the country.
    Wwe have within our government, I think, a lot of the 
arteries that could do this. At the NSC, and the National 
Security Council, there is the opportunity there to have 
greater coordination.
    I know we have already spoken a little bit about the 
legislation, but as someone who is a former government person 
who has seen how the NSC operates, there is definitely 
opportunity there within that body to help coordinate some of 
these efforts.
    Mr. Stivers. We have talked a little bit with other members 
earlier about the legislation that is pending that would ban 
importation of certain Syrian antiquities. From the perspective 
of the panel, what other legislative proposals--you talked 
about pedigree earlier, for lack of a better word, or getting 
the recent ownership of some antiquities in art trading. What 
other legislative proposals should be pursued if we are going 
to get at this problem?
    Ms. Gerstenblith. H.R. 2285 is already--I think it has 
already been reported out of Homeland Security. It is no new 
law, but it would streamline the way Customs operates and would 
actually require the two parts of Homeland Security--the 
Customs and Border Protection and the Immigration and Customs 
Enforcement Agencies--to work together, which they don't do 
terribly well, in this field at least.
    For instance, they have not rewritten the Customs directive 
since 1990--
    Mr. Stivers. Wow.
    Ms. Gerstenblith. --which is out of date. And so there are, 
in fact, several steps that could be taken.
    Beyond H.R. 2285 but not legislatively, for example, the 
number of ports through which art antiquities could be imported 
could be restricted so that the expertise would develop amongst 
Customs agents--
    Mr. Stivers. Interesting idea.
    Ms. Gerstenblith. --to recognize things and to know the 
laws. I am the first to admit this is a very obscure and narrow 
area of the law, and the number of people who can be trained 
either as agents or among assistant United States attorneys 
should be limited, and we can concentrate the expertise and, 
therefore, have better outcomes of lawsuits, criminal 
prosecutions, and the like.
    Mr. Stivers. Are there any ports today that have some more 
expertise than others? Is there a port that is more active?
    Ms. Gerstenblith. New York, of course, is the most active, 
but because of that I have been told anecdotally, for example, 
that until you declare something is worth at least $250,000, at 
least in the past they don't inspect it. And there are a couple 
of other ports in particular. In the South, there are a couple 
that mostly have things coming from Central and South America, 
like Houston, Santa Fe; the west coast, things from Asia come 
to, say, San Francisco, L.A.
    Sometimes people route things, though, through ports that 
don't have a lot of antiquities. For example, a group of 
Chinese antiquities were picked up through Alaska, where they 
probably don't have--geographically it makes sense that they 
probably don't have the expertise and they are not accustomed 
to it.
    So I think we could concentrate and thereby build, both in 
the U.S. attorneys' offices, to have trained experts at main 
Justice who would take on these cases. We have a very effective 
FBI art crime team that could use more resources and higher 
priority.
    But I don't think we have that same level of expertise 
within Customs.
    Mr. Stivers. Sure.
    Ms. Gerstenblith. And we don't have it within the U.S. 
attorneys' offices, other than probably the Southern District 
of New York.
    I also think that both Federal prosecutors and judges 
should understand that when there is a criminal conviction, 
there is the possibility of jail time. There is a special 
cultural heritage resource sentencing guideline that has been 
in place for 12 years. It is not used enough.
    So there is a lot that can be done with education, 
consolidation of resources, which will produce more effective 
law enforcement and better criminal sentencing outcomes in 
appropriate circumstances.
    Mr. Stivers. Thank you. Thank you, Dr. Gerstenblith.
    And thank you all for everything that you have worked for 
and testified for before today.
    I know my time has expired. I yield back my nonexistent 
balance of time, Mr. Chairman.
    Chairman Fitzpatrick. Thank you, Mr. Stivers.
    I am going to yield myself 5 minutes.
    I am going to ask the staff to put up that slide, Dr. 
Gerstenblith--your original slide, which was Mari, I think it 
was after, so you--went through in your opening statement what 
we were looking at. In a moment I am going to ask you maybe in 
a little more detail if you can explain that slide in some more 
detail what we are looking at.
    Ms. Gerstenblith. This is the second one. Do you--
    Chairman Fitzpatrick. This is the second one, yes. This is 
the after slide.
    First, I want to ask Mr. Fanusie a really quick question. 
The FBI issued a warning back in 2015 that those who were 
involved in the trafficking of Islamic State antiquities could 
be investigated and prosecuted under material support for 
terrorism provisions. To your knowledge, has the FBI ever 
applied those types of charges?
    Mr. Fanusie. I haven't heard of anything since, not 
publicly, for antiquities coming out of--I have not heard of 
anything.
    Chairman Fitzpatrick. You haven't heard of prosecution or 
charges. How about investigations? Any anecdotal evidence that 
these things are actually being investigated?
    Mr. Fanusie. I don't have anecdotal evidence except for--I 
know in the bulletin it states that the FBI is aware that 
people have been approached--buyers have been approached. So I 
would assume that there should be investigations going on, but 
publicly I haven't seen anything.
    Chairman Fitzpatrick. Do you have an opinion as to what the 
obstacles are to investigation?
    Mr. Fanusie. I'm sorry?
    Chairman Fitzpatrick. The obstacles that prosecutors would 
have in an investigation.
    Mr. Fanusie. Someone just mentioned the U.S. Attorney's 
Office. I think in general, cultural property is not the most 
well-known topic for investigators, so even though the bureau 
does have a good team, if you think about all of the agents all 
over the country and if not the world, cultural property is not 
something that is probably the most--we don't have necessarily 
the most expertise in--around--in all of our offices with all 
of our agents.
    Chairman Fitzpatrick. Dr. Gerstenblith, in your testimony 
you had mentioned when these artifacts are intercepted at, say, 
the southern border of the United States that they are 
identified with some sort of asset forfeiture process that goes 
on, returned to their owners, but no prosecution. I assume that 
is because of lack of authority?
    Ms. Gerstenblith. In some cases, for instance the Syria 
import restrictions, if they go into effect under H.R. 1493, is 
not a criminal provision; it is only a forfeiture. So in a lot 
of cases, that is correct.
    But I would say the biggest obstacle to criminal 
enforcement is that if this is my ancient Syrian antiquity, by 
looking at it you cannot tell whether it is legal or illegal. 
That means that if I buy it--first, it is an obstacle to law 
enforcement to determine whether it is legal or illegal.
    But for criminal prosecution they have to prove whether I 
knew that it was legal or illegal, and that is very difficult 
to do. You can only do that, so far as we know--in the cases 
that we have--either through undercover investigation or 
through somebody who flips, my bookkeeper, whatever, then 
reports me.
    So I think one thing that could be done is to encourage 
undercover investigations. That requires some authority and 
some finance support for that because it takes time to develop 
the personas and everything for the undercover investigations. 
So I think that is the biggest problem.
    I would like to see more criminal options under import 
restrictions. One way of getting the criminal option is through 
the sanctions, because those would be criminal if you violate 
them. But the knowledge factor is still the problem.
    Did you have another question for me?
    Chairman Fitzpatrick. Yes. Looking at that slide, can you 
just go into a little more detail exactly what we are looking 
at? And then I am going to ask Mr. Edsel, because in response 
to a question Mr. Edsel--are we doing enough in the United 
States--yes, if--want to go to the first slide? Is the first 
slide easier? Would that be better--
    Ms. Gerstenblith. The second one shows the looting; this 
one does not show much in the way--yes.
    Chairman Fitzpatrick. Okay.
    Ms. Gerstenblith. So the white structure is a palace of 
Zimri-Lim, from the early part of the second millennium BCE, 
and to the left of it are some excavated areas, the lines that 
you see.
    And then all of the pits around it are looters' pits. And 
some are marked with a red circle, but some are not. The ones 
with the red circles were only in the 2 or 3 months before the 
image was taken.
    Now, this fell under ISIL control I think in the spring of 
2014, so this is about 6 months or so. So if you want to 
compare it, we could go back to the first slide and you will 
see the difference.
    Okay? Dr. Al-Azm could also add to that, if you would like.
    Mr. Al-Azm. Basically, the site of Mari, there is a very 
well-known local village close by, and they traditionally have 
always been the looters of that site long before any of the 
conflict started. So obviously when things went pear-shaped in 
Syria, and even before ISIS took over, when the regime was 
pulling back from the rural areas back into the cities, there 
was no longer any sort of oversight or scrutiny of what was 
going on at the site of Mari as well as many other sites, and 
it became a looters' haven.
    And we know that in Mari as well as in Dura Europos and 
several other of these sites, sectors were being sold by the 
local, let's say organized mafia, controlled by this one local 
village, to the highest bidder to come and loot the site. Now, 
when ISIS took over, they came upon this preexisting situation.
    They just said, ``Right. Now we are in charge, so you have 
to now work through us. So now we are the ones who issue the 
licenses. You can continue looting, but now everything has to 
funnel through us and we have to take our cut on every step of 
the process.'' And this has really been repeated in site after 
site after site after site.
    Chairman Fitzpatrick. And this is a combat zone. Does 
anybody want to predict, without holding you to it, what the 
next potential site would be of this kind of destruction or 
looting, combat or noncombat? Are there other sites that we 
should be looking at?
    Mr. Al-Azm. Are you thinking in Syria or outside?
    Chairman Fitzpatrick. The whole world.
    Ms. Gerstenblith. Libya, without question.
    Mr. Al-Azm. I would concur. We already know that it is 
happening. I have spoken to a Libyan colleague of mine who 
works--essentially does the same thing I do, and he says that 
they are already experiencing very similar pattern of behavior 
in Libya.
    Chairman Fitzpatrick. I think my time has expired.
    There has been a request for a second round. Is there any 
objection?
    Without objection, Mr. Pittenger is recognized for 5 
minutes.
    Mr. Pittenger. Thank you, Mr. Chairman.
    And I thank each of you for being with us today. We have 5 
minutes here on my part, and I would really like to get your 
action points: what you would do if you were in our seat; what 
policy changes, legislation--you have mentioned some; what work 
with our international community. What would you do to prevent 
the utilization of antiquities in the market and plundering 
them and the use by ISIS?
    Mr. Edsel, please begin, and I will give each of you a 
little less than a minute.
    Mr. Edsel. We need more transparency. I think Mr. 
Shindell's comments about establishing standards for disclosure 
are absolutely correct.
    There is something horribly wrong, from my perspective as a 
citizen coming back into the country with requirements to 
declare any cash or fungible currency $10,000 or less, and yet 
we can ship works of art around the world out of the eye of the 
system. So I think there is a lot of work to be done in that 
area.
    I certainly think the art looting group at the FBI, 
Customs, ICE, needs more funding. They have a very, very 
difficult situation.
    We have to get people who are collecting to understand 
there is a responsibility on their part to know what these 
objects are and where they came from and that there is a 
consequence to willful ignorance.
    Mr. Pittenger. Thank you.
    Mr. Fanusie?
    Mr. Fanusie. Yes. I would like to echo the idea of giving 
our law enforcement more tools to work with through the use of 
sanctions. That would, again, bring more authority that would 
allow us to go after folks who are really involved and the 
worst offenders of this issue.
    And then I would say--this may be a bit outside of the box, 
but we need to sort of bring a face to this issue. There should 
be more coverage, I think, culturally in the State Department.
    This issue should be raised more so that the public has a 
sense, right? We have all viewed, ``Raiders of the Lost Ark.'' 
We all sort of have this--``Monuments Men'', the power of 
media, of culture could play into this, so we should really 
leverage that.
    Mr. Pittenger. Thank you very much.
    Ms. Gerstenblith?
    Ms. Gerstenblith. In addition to everything I have said 
already, a few other things. One on perhaps the microscale is 
to modify the Harmonized Tariff Schedule and to require 
importers to declare more precisely what it is they are 
bringing into the country. And I can go into more detail on 
that if you should want to.
    But I think in terms of market transparency, one thing that 
we haven't talked about is that when objects are donated to 
U.S. institutions, cultural institutions, and the donor 
receives a tax deduction, at the moment there is, under the IRS 
rules, whatever the museum may do is one thing--and I am not 
discounting what museums themselves do and their requirements--
but when the donation is reviewed by the IRS Art Advisory 
Panel, it is reviewed only for the market value of the object 
and not for the provenance information and the title, and I 
think that would be an important addition.
    Mr. Pittenger. Thank you very much.
    Dr. Al-Azm?
    Mr. Al-Azm. On the supply end I would say increase support 
to organizations that are on the ground in Syria in the areas 
outside regime support to help prevent looting. Remember that 
when an object leaves Syria, ISIS has already collected its 
money, so everything else is academic after that, in terms of 
how ISIS makes its money.
    On the demand end, I would suggest maybe, like when you buy 
a car there is a VIN number on the car and there is a logbook; 
you can't sell it without that. Why can't we do the same for 
objects?
    It is very simple. Just make sure that you have that, and 
the onus is on the buyer and the seller to make sure that 
information matches. You are not relieved or absolved of 
responsibility under the law currently, as I understand it.
    Mr. Pittenger. Thank you very much.
    And, Mr. Shindell?
    Mr. Shindell. There is a need for both short-term solutions 
and long-term solutions, and many of the great ones that have 
been suggested are short-term focused, as they should be.
    The long-term issue goes back to what we keep saying: 
transparency and accurate information. So Patty's example, how 
do we know when the artifact bottle of water that is coming 
through Customs is real or fake, the object someone says they 
are referring to, and the information associated with the 
object is accurate?
    A clear way to intervene today is through the financial 
industry and sector, because of the intersection of money and 
these objects; technology solutions, which can put VIN numbers, 
in effect, on objects, although that is a very complex issue 
for sensitive objects where the integrity must be in place for 
decades if not centuries, but technology can do that today.
    And all of that, then, adds to the transparency that can 
make the specific intervention tactics meaningful. Otherwise we 
aren't achieving enough scale to solve the problem 
holistically.
    Mr. Pittenger. Thank you very much. This has been extremely 
helpful. We really appreciate your being here today.
    Chairman Fitzpatrick. With that, we would like to thank, 
again, our witnesses for their testimony today. We found the 
testimony and these action items to be extremely helpful to our 
work.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, this hearing is adjourned. Thank you.
    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                            A P P E N D I X



                             April 19, 2016
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             
                             





</pre></body></html>
